October 14, 2008

JAMES P. COCHRANE
VICE PRESIDENT, GROUND SHIPPING

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

SUBJECT: Audit Report – Shortpaid Postage – Information-Based Indicia Parcel Post
         Mail (Report Number MS-AR-09-002)

This report presents the results of our self-initiated review of shortpaid postage on
Information-Based Indicia (IBI) Parcel Post mail (Project Number 08RG020MS000).
The audit covered xxxxxxxxxxx IBI postage only.1 Our objective was to determine
whether controls are adequate to detect shortpaid and unpaid postage on IBI Parcel
Post mail.2 This audit addresses operational risk to the U.S. Postal Service. Click here
to go to Appendix A for additional information about this audit.

Conclusion

Overall, controls were not adequate to reasonably ensure the Postal Service detects
and collects shortpaid and unpaid postage on IBI Parcel Post mail. Xxxxxx, xxx xxxxxx
xxxx xx xxxxxxxxx, xxxx XXX xxxxxx Xx xxxx xxxxxxxxx, xxxxxx, xx xxxxxxxxxxx
xxxxxxx. Thus, the Postal Service is at risk of revenue loss and fraud. Our audit
identified $20.4 million in unrecoverable revenue3 and $27.2 million in recoverable
revenue4 resulting from shortpaid postage on IBI Parcel Post mail. We will report this
monetary impact in our Semiannual Report to Congress.

Controls to Detect Insufficient Postage on IBI Parcel Post Mail Need
Strengthening

XX Xxxxxxx™ xxx xxx, xxxx xx xxxx xx xxxxxxxxx, xxxx XXX Xxxxxx Xxxx xxxx xxxx
xxxxxxxxx, xxxxxx, xx xxxxxxxxxx. Xxxx xxxxxxxxx xxxxxx xxxxxxx xxx xxxx xx
xxxxxxxx xx xxx xxxxxx xxxxxx, xx xxxxxx xx xxxxxxx xxxxxxxxxx xxx, xx xxxx XxxxxXx.
1
  Postage that is not “hidden.” The actual postage amount (in dollars or cents) is visible.
2
  These mailpieces carry the Parcel Post postage mark or stamp, printed using online postage products. They
include a machine readable two-dimensional barcode, along with human-readable information.
3
  Revenue that should have been recognized for goods delivered or services rendered, but was not recognized due
to the passage of time or other circumstances.
4
  Revenue the agency can collect for goods delivered or services rendered.
Review of Shortpaid Postage – Information-Based                                                      MS-AR-09-002
Indicia Parcel Post Mail


The Postal Service did not detect insufficient postage on IBI Parcel Post mail because
existing guidance (manuals, handbooks, Postal Bulletins or standard operating
procedures) did not include detailed instructions, identify roles and responsibilities, or
establish needed checkpoints for identifying and collecting insufficient postage on xxx-
xxxxxxx IBI Parcel Post mail. Although the Postal Service circulated guidance in the
form of service talks on revenue protection and insufficient and omitted postage in May
2008, some employees we interviewed did not acknowledge receiving training on
identifying and collecting shortpaid postage on IBI Parcel Post mail. Click here to go to
Appendix B and see Table 2.

Without specific guidelines and training on identifying and collecting insufficient postage
on IBI Parcel Post mail, the Postal Service risks significant revenue loss and fraud.
Based on Origin Destination Information System – Revenue, Pieces, and Weights5
(ODIS–RPW) data, the Postal Service has incurred $20.4 million in unrecoverable
revenue loss from shortpaid and unpaid postage on xxxxxxxxxx IBI Parcel Post mail for
fiscal year (FY) 2007 through FY 2008, quarter 2. We also project the Postal Service
could prevent revenue losses totaling $27.2 million over a period of 2 years if
management implements controls to detect and collect shortpaid and unpaid postage
on IBI Parcel Post mail. Click here to go to Appendix B for our detailed analysis of this
topic.

We recommend the Vice Presidents for Ground Shipping, Retail Operations, and
Delivery Operations, coordinate with the Vice President, Network Operations
Management, and the Vice Presidents, Area Operations, to:

1. Identify mail entry points6 at which employees should verify postage on Information-
   Based Indicia (IBI) Parcel Post mail.

2. Update the Domestic Mail Manual (DMM) and other applicable manuals and
   handbooks to establish specific guidelines and assign roles and responsibilities for
   identifying shortpaid postage on IBI Parcel Post mail, including a procedure for
   identifying counterfeit/duplicate IBI Parcel Post mail labels at mail entry points.

3. Provide formal training to employees who accept and process IBI Parcel Post mail.
   The training should include specific instructions on identifying and collecting
   shortpaid IBI postage and verifying the validity of IBI Parcel Post mail labels and
   proper procedures for handling counterfeit labels.



5
  The primary probability sampling system used to estimate Postal Service revenue, volume, weight, and transit time.
Management uses the information collected from this system to develop proposals for new Postal Service rates,
assist in budget preparation, conduct management studies, and support management decisions concerning mail flow
and service performance in transportation and operations.
6
  A mail entry point is where mail enters the Postal Service. Examples are collection boxes, retail windows, and
Carrier Pick-Up.




                                                         2
Review of Shortpaid Postage – Information-Based                              MS-AR-09-002
Indicia Parcel Post Mail


4. Raise the level of awareness and importance regarding revenue protection by
   implementing a national initiative to identify and collect additional postage on
   shortpaid IBI Parcel Post mail. Educational and awareness materials could include
   visual aids, such as posters depicting the various PC Postage IBI labels, which
   management could hang in post office retail lobbies and back office areas.

5. Xxxxxxx xxxxxxxxxxx xx xxxxxxx xxxxxx xxxxxxxx xx xxxxxxx xxxx xx XXX xxxxxx
   Xxxx xxxx, xxxxxx xxxxxxxxx xxxxxx xxxxxxxxxxx xxxxxxxxxx xx xxxxxxx xxxxxxx
   xxxxxxx, xxx xxxxxxxx x xxxxx xxx xxx xxx xxxxxx xxxxxxxxxxxxx xxxxxxx. Results
   should be consolidated at the district level to identify potential sources of abuse.

Management’s Comments

Management agreed with recommendation 2; partially agreed with recommendations 1,
3 and 4; and disagreed with recommendation 5. They also agreed with our monetary
impact. To address recommendation 2, management will update the Postal Operations
Manual to include shortpaid handling processes, and review the DMM and Handbook
M41, City Delivery Carriers Duties and Responsibilities, to determine whether revisions
are required. Regarding recommendation 1, xxxxxxxxxx xxxxxxxxx xxxx xxxxxxxxx xxx
xxxxxx XXX xxxxxxx xx xxx xxxxxx xxxxxx; xxxxxxx, xxxxxxxxx xxxxxxx xx xxxxx xxxxx
xxxxxx xxxxx xxxxxx xxxxxxxxxxx xxxxxxxx. To address recommendations 3 and 4,
management will establish a cross-functional team to revise and reissue a letter on
shortpaid mail and stale meter dates, and provide ongoing messaging through stand-up
talks and the Retail Digest. Additionally, they will update formal training modules
throughout the year. Finally, management disagreed with recommendation 5, stating
that the Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx xxxxxxxxxx xxxxxxxx xxxxxxxxxxx
xxxxxxxx xx xxx xxxxxx xxxxxxxxxx xxxxxxx xxxxxxxxxxxx xxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx, xxx xxxxxx xxxxxxxxxxxx xxx xxxxx xxxxxxxxx xx
xxxxxxxx xxxxxxxxx xxxxxxxxxx xxxxxxxxx xx xxx xxxxxxxxx xxxxxxx xxxxxxxxxx
xxxxxx xxxxxx. Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1, 2, 3 and 4, and their corrective actions
should resolve the issues identified in the report. However, management’s comments
are only partially responsive to recommendation 5 and will not fully resolve the issues
identified in the report. Xxxxx xxx XXXxXX xxxxxx xx xxxxxxxxx xxxx xx xxxxxxxx xxx
xxxxxxxxx XXX xxxxxxxxxxxxxxxx xxxxxxx, xx xxxx xxx xxxxxxx xxxxxxxxx xxxxxx. Xxx
Xxxxxx Xxxxxxxxxx Xxxxxxx xx xxxxxxxxxxxxx xxxx XXXxXX xxxxxxxxxxxx, xxx xxx
xxxxxxxxxxxx xxx xxx xxx xx xxxxx. xxxxxxx, xxxxxxxxxxx xxxxxxxxxx xxxxxx xxxxxxxx
xxxxx xx xxxxxxxxx xxxxxxx xxxx xxx xxxxxxxxxxxxxxxx xxx xxxxxxxxx xxxxx. Xxxxxxx,
xx xxxxx xxxx xx xxxxxxx xxxxxxxx xxxxx xx xxxxxxx; xxxxxxx, xxxxx xxxx x xxxxxxxx xx
xx xxxxx xxx xxxxxxx xxxxxxxxxx, xxxxxxxxxx xxxxxxxx xx xxxxxx xx xxxx xxxxxxx xxxx
xxxxxxxxxxx xxxxxxx xxxxxxx.




                                                  3
Review of Shortpaid Postage – Information-Based                              MS-AR-09-002
Indicia Parcel Post Mail



The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. We view the disagreement on recommendation 5 as
unresolved and plan to pursue it through the formal audit resolution process.

We will report $47.6 million of monetary impact, including $20.4 million in unrecoverable
revenue and $27.2 million in recoverable revenue, in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Robert Bernstock
    Vice Presidents, Area Operations
    Anthony M. Pajunas
    Daniel J. Lord
    Katherine S. Banks




                                                  4
Review of Shortpaid Postage – Information-Based                                                   MS-AR-09-002
Indicia Parcel Post Mail



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service offers several online postage payment options for the convenience
of its customers. Customers may choose Click-N-Ship (a Postal Service product) or an
authorized online postage provider such as eBay (Pitney Bowes), Endicia.com,
Stamps.com, or Pitney Bowes, Inc.7 This audit addresses the use of authorized
providers rather than the Postal Service product.

IBI - A special digital imprint that is valid postage. IBI contains the date, class of mail,
postage amount, originating ZIP Code, and a unique device identification number. It
also has a unique two-dimensional barcode containing ascending and descending
register values, machine-readable mail processing information, and security data for
revenue protection. As a security measure, each printed indicia has a unique digital
signature to help prevent fraud – no two are alike.8

PC Postage - A trademark of the Postal Service for products developed by commercial
vendors that allow a user to print postage from a personal computer in the form of an
IBI. The Postal Service licenses and authorizes approved vendors as official
developers and sellers of the products.

Insufficient Postage - Mail of any class (including mail indicating extra services, except
Express Mail, Registered Mail, and nonmachinable First-Class Mail) that is received at
either the office of mailing or office of address without enough postage. This mail is
marked to show the total (rounded off) deficiency of postage and fees.9

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls are adequate to detect shortpaid and
unpaid postage on IBI Parcel Post mail. To accomplish our objective, we:

•   Reviewed guidance pertaining to shortpaid postage procedures.

•   Judgmentally selected and conducted site visits and telephone interviews at 12 sites
    to review implemented policies and procedures and assess employee knowledge of
    shortpaid IBI controls.

•   Conducted 49 test mailings of xxxxxxxxxx IBI Parcel Post mail from July through
    September 2008 to determine whether shortpaid or unpaid mailpieces would be
    delivered undetected.
7
  Postal Bulletin, 22218, page 25, October 25, 2007.
8
  Postal Bulletin 22004, page 9, August 12, 1999.
9
  Domestic Mail Manual, Chapter 604, Postage Payment Methods, Section 8, Insufficient or Omitted Postage.




                                                       5
Review of Shortpaid Postage – Information-Based                                MS-AR-09-002
Indicia Parcel Post Mail



•   Analyzed ODIS-RPW shortpaid postage data for FYs 2007 and 2008. We relied on
    data from this system to determine the impact of our findings regarding omitted and
    insufficient postage for shortpaid IBI Parcel Post mail. We did not directly audit the
    system, but discussed with Postal Service officials the relevance of the data to our
    audit work.

We conducted this audit from June through October 2008 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on September 5, 2008, and included their
comments where appropriate.




                                                  6
        Review of Shortpaid Postage – Information-Based                                      MS-AR-09-002
        Indicia Parcel Post Mail



        PRIOR AUDIT COVERAGE

                     Report             Final Report
Report Title         Number                 Date               Monetary Impact            Report Results
Click-N-Ship     MS-AR-08-004          March 31, 2008         $37 million in           Management should
Program                                                       unrecoverable            strengthen controls over
                                                              revenue and $37          the program to detect
                                                              million in recoverable   packages mailed with no
                                                              revenue                  (or insufficient) postage
                                                                                       or with stale dates. The
                                                                                       monetary impact resulted
                                                                                       from omitted postage on
                                                                                       Click-N-Ship packages.
                                                                                       Management agreed with
                                                                                       the findings and
                                                                                       recommendations to
                                                                                       strengthen controls over
                                                                                       the program.
Balloon Rate     DR-AR-05-017          September 29,          $24,600 in potential     The Philadelphia and
and Parcel                             2005                   additional revenue       Pittsburgh Districts did
Surcharges                                                                             not properly assess
                                                                                       balloon rate,
                                                                                       nonmachinable, and
                                                                                       oversized surcharges on
                                                                                       234 of 254 packages
                                                                                       reviewed. Although
                                                                                       management trained
                                                                                       retail associates on how
                                                                                       to assess surcharges, the
                                                                                       training did not include
                                                                                       hands-on demonstrations
                                                                                       to show retail associates
                                                                                       how to properly measure
                                                                                       packages. Management
                                                                                       stated it planned to
                                                                                       develop on-line training
                                                                                       for sales and service
                                                                                       associates (SSAs), which
                                                                                       would focus entirely on
                                                                                       surcharges.
                                                                                       Management also stated
                                                                                       Point Of Service ONE
                                                                                       changes underway would
                                                                                       change the way retail
                                                                                       associates measure
                                                                                       packages.




                                                          7
Review of Shortpaid Postage – Information-Based                                                      MS-AR-09-002
Indicia Parcel Post Mail


                                APPENDIX B: DETAILED ANALYSIS

Controls to Detect Insufficient Postage on IBI Parcel Post Mail Need
Strengthening

XX Xxxxxxx xxxxx xxx xxxx XXX Xxxxxx Xxxx xxxx xxxx xxxxxxxxxxxx xxx xxxxxxxxxxx
xxxxxxx. Xxxxxxxxxxx, xxxxxxxxx xxx xxx xxxxxx xxx xxxxxxx xxxxxxxxx xxxxxxx xx xx
xxxx xx xx XXX Xxxxxx Xxxx xxxxxxxx xx xxxxxx xxxx xxxxx xx. Xx xxxxxx xx xxxxxx
xxxxx xxxx Xxxxxxxxxx xx xxxxxx xxx xxxxx xxxxxxx Xxxxxx Xxxx xxxx xxxxxxxx xxxxxx
xxx xxxxxx xx xxxxxx Xxxx xxxxxxxx xxxx xxxxxxxxxxxx xxxxxxx. Xxx xxxx xxxxx xxxx
xxxxxxxxxxx xxxxxxx.

            Table 1. Shortpaid IBI Parcel Post Test Mailings10
                             Shortpaid       Shortpaid         Shortpaid
                             Mailpieces      Mailpieces     Mailpieces Not
 Method Used for Mailing       Mailed         Detected         Detected
                                                    11
Retail Window                    24               3               21
Carrier Pick-Up                    2              0                2
Outside Collection Box             2              0                2
Inside Post Office
Collection Box                   16               0               16
Collector Employee                 3              0                3
                                                   12
Contract Postal Unit               2             1                 1
                   Totals        49               4               45

Xx xxx xx Xxxxxx Xxxx xxxxxxxxx xxxxxx, xxxx xxx xxxxxxxxxxx xxxxxxxxxxxxx xxxxxx.
Xxxxxxxxx xxxxxxxxx xxx xxxx xx xxx xxxx xxxxxxxxxx xxxx xxxxxxxxxx xxxxxx xxxxxxx
xxxxxxxxx.

These conditions exist because:

        •    Existing guidance (manuals, handbooks, Postal Bulletins or standard
             operating procedures) did not define necessary checkpoints or include
             detailed instructions for identifying and collecting insufficient postage on IBI
             Parcel Post mail.

        •    Employees did not receive sufficient training to identify and collect shortpaid
             postage on IBI Parcel Post mail.


10
   Test mailings include mailings of shortpaid and counterfeit postage.
11
   Two were detected at the retail window and senders paid additional postage.
12
   Package was left with the SSA who did not collect additional postage; however, the package was later returned to
sender as postage due.




                                                         8
     Review of Shortpaid Postage – Information-Based                                                   MS-AR-09-002
     Indicia Parcel Post Mail


              •   Management did not create and implement policies and procedures to identify
                  and process xxxxxxxxxxxxxxxxxxxxxxx labels for IBI Parcel Post mail at mail
                  entry points.

     To assess employee knowledge of identifying and collecting additional postage on
     shortpaid IBI mail, we conducted site visits and telephone interviews at 12 judgmentally
     selected sites. At each of the 12 sites, Postal Service management and personnel were
     unaware of written policies, standard operating procedures, or other guidance for
     identifying and collecting shortpaid postage for IBI Parcel Post mail.

     We interviewed 14 SSAs, three letter carriers, eight clerks, one mail handler, and 16
     managers and supervisors (see Table 2).

          Table 2. Postal Service Management/Employee Interview Response Summary
                                 SALES AND                             DISTRIBUTION
                                  SERVICE             LETTER             CLERKS &             MANAGERS/
         QUESTION                ASSOCIATES          CARRIERS         MAILHANDLERS           SUPERVISORS           TOTAL
Are there written policies
and procedures, standard
operating procedures
SOPs, and other guidance
                                     14 No               3 No                9 No                  16 No            42 No
for identifying and collecting
shortpaid IBI Parcel Post
mail postage?

Are random samples
conducted to identify and                                                                                          3 Yes
collect shortpaid IBI                         13                                                   3 Yes           13 No
                                 Did Not Ask         Did Not Ask         Did Not Ask
postage? (managers &                                                                               13 No           26 Did
supervisors only)                                                                                                 Not Ask

Are employees assigned to
isolate and handle                                                                                                 28 No
shortpaid Parcel Post            Did Not Ask14           3 No                9 No                  16 No           14 Did
mailpieces?                                                                                                       Not Ask

Is training or are stand-up
talks provided to inform                                                                                           9 Yes
employees how to identify           6 Yes15                      16                                3 Yes           21 No
                                                    Did Not Ask          Did Not Ask
and collect shortpaid IBI            8 No                                                          13 No           12 Did
Parcel Post mail?                                                                                                 Not Ask




     13
        The question was not applicable to the craft employees.
     14
        This question was not asked of SSAs and letter carriers because the intent was to determine whether someone
     verifies postage after the SSAs accept the package at the retail window.
     15
        Six SSAs we interviewed were given a stand-up talk on stealth postage.
     16
        This question was not asked of any interviewees who responded “No” to the question "Are employees assigned to
     isolate and handle shortpaid Parcel Post mailpieces?”




                                                             9
     Review of Shortpaid Postage – Information-Based                                                       MS-AR-09-002
     Indicia Parcel Post Mail


                            SALES AND                                   DISTRIBUTION
                             SERVICE                LETTER                CLERKS &              MANAGERS/
      QUESTION              ASSOCIATES             CARRIERS            MAILHANDLERS            SUPERVISORS           TOTAL
 Have they received                                                                                                   4 Yes
 any training on                 2 Yes                                        2 Yes                                   22 No
                                                       3 No                                      Did Not Ask
 revenue protection?             12 No                                        7 No                                    16 Did
                                                                                                                     Not Ask
 Are there procedures
 in place to identify                                                                                                 14 No
 xxxxxxxxxxx XXX                 14 No             Did Not Ask             Did Not Ask           Did Not Ask          28 Did
 mailpieces?                                                                                                         Not Ask

 Do they follow the
 Retail Acceptance
 SOPs for Electronic                                                                                                  6 Yes
 Rate Confirmation               6 Yes                         17                                                      8 No
                                                  Did Not Ask              Did Not Ask           Did Not Ask
 Services Online                 8 No                                                                                 28 Did
 Labels with or without                                                                                              Not Ask
 postage affixed?

 Have they received                                                                                                   6 Yes
 stand-up talks on               6 Yes                         18                                                      8 No
                                                  Did Not Ask              Did Not Ask           Did Not Ask
 stealth postage?                8 No                                                                                 28 Did
                                                                                                                     Not Ask
Source: OIG Interview Results

     Without an established procedure, specific guidelines, and training on identifying and
     collecting insufficient postage on IBI Parcel Post mail, shortpaid postage can go
     undetected and uncollected, and the Postal Service is at added risk of significant
     revenue loss and fraud. Based on ODIS–RPW data, the Postal Service incurred $20.4
     million in unrecoverable revenue loss from shortpaid and unpaid postage on IBI Parcel
     Post mail for FY 2007 through FY 2008, quarter 2 (see Table 3).




     17
        The question was directed only to the SSAs. Electronic Rate Confirmation Services is part of the retail acceptance
     function.
     18
        This question was not asked of any interviewees who responded “No” to the question "Are employees assigned to
     isolate and handle shortpaid Parcel Post mailpieces?”




                                                              10
Review of Shortpaid Postage – Information-Based                                                    MS-AR-09-002
Indicia Parcel Post Mail



             Table 3. Shortpaid Revenue – IBI Parcel Post Mail (XxxxXxxxxxx)19
                                                            Shortpaid
                                  Period                     Revenue
                                 FY 2007
                  Q1                                           $2,439,388
                  Q2                                            2,558,504
                  Q3                                            2,730,768
                  Q4                                            3,171,297
                  Total FY 2007                              $10,899,957

                                         FY 2008
                     Q1                                                             $4,947,258
                     Q2                                                              4,583,762
                     Total FY 2008, Q1 – Q2                                         $9,531,020

                     Total FY 2007 through FY 2008, Q2                          $20,430,97720
                   Source: ODIS-RPW

We also project the Postal Service could prevent revenue losses totaling $27.2 million
over a period of 2 years if management implements controls to detect and collect
shortpaid and unpaid postage on IBI Parcel Post mail.




19
     Excludes Click-N-Ship® mail.
20
     Overpaid revenue for IBI Parcel Post mail (xxxxxxxxxxx) was $5,844,305 for the same period.




                                                          11
Review of Shortpaid Postage – Information-Based                                                         MS-AR-09-002
Indicia Parcel Post Mail


                          APPENDIX C: MANAGEMENT’S COMMENTS21




21
   We issued a separate draft report on shortpaid Priority mail to the Vice President, Expedited Mail, containing
essentially the same findings and recommendations. Management combined its responses to both reports.
Therefore, management's response mentions both Parcel Post and Priority mail.




                                                          12
Review of Shortpaid Postage – Information-Based        MS-AR-09-002
Indicia Parcel Post Mail




                                                  13
